November 1, 2019

Via Electronic Filing and Federal Express
Mr. Scott Harris
Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: No. 19-547, United States Fish and Wildlife Service et al. v. Sierra Club
Dear Mr. Harris:
I am counsel for respondent Sierra Club in the above-captioned case. The petition
for certiorari in this matter was filed on October 25, 2019, and placed on the docket
on October 28, 2019. Sierra Club’s response is due on November 27, 2019.
I am writing to request, pursuant to Rule 30.4, that the time for filing Sierra Club’s
Brief in Opposition be extended by 40 days, to (and including) January 6, 2020. We
seek this extension so that new counsel may familiarize themselves with the case,
and to accommodate the end-of-year holidays. Counsel for the petitioners has
consented to the requested extension.
Please do not hesitate to contact me if you have any questions or concerns, at (415)
977-5769 or sanjay.narayan@sierraclub.org. And thank you for your time and
attention.
Respectfully submitted,
Sanjay Narayan

Counsel for Respondent Sierra Club
cc: Michael R. Huston, Assistant to the Solicitor General (via electronic mail and
Federal Express)

